COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE




   OFFICE OF THE
INSPECTOR GENERAL




FOR THE PERIOD ENDING SEPTEMBER 30, 2000
                     u.s. COMMODITY FUTURES TRADING COMMISSION
                                         Three Lafayette Centre
                              1155 21st Street, NW, Washington, DC 20581
                                        Telephone: (202) 418-5110
                                        Facsimne: (202) 418-5522


                                          October 30, 2000
     OFFICE OF
INSPECTOR GENERAL



  TO:           William J. Rainer
                Chairman

  FROM:         A. Roy   LaVikQ (2 '£.
                Inspector General

  SUBJECT:      Semiannual Report of the Office of the Inspector General

         Attached is the Semiannual Report of the Office of the Inspector General for the period
  from April 1, 2000 through September 30, 2000. This report is submitted to you in
  accordance with the requirements of Section 5 of the Inspector General Act of 1978, as
  amended.

         I appreciate your continuing support of this office.

  Attachment
                  OFFICE OF THE INSPECTOR GENERAL
               COMMODITY FUTURES TRADING COMMISSION

                             SEMIANNUAL REPORT
                             FOR THE PERIOD FROM
                    April!, 2000 THROUGH September 30, 2000

                              TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(l) and (2) of the Act)]                                         1
    AUDITS                                                                                    1
    INVESTIGAnONS                                                                             2
    LEGISLATIVE AND REGULATORY REVIEWS                                                        2

OIG RESPONSIBILITIES                                                                          3

OIG RESOURCES                                                                                 4

CFfC PROGRAMS AND OPERATIONS                                                                  4

COMPLETED WORK                                                                                5
    AUDITS [including a list of each audit report issued and a summary of each
    particularly significant report (Mandated by Section 5(a)(6) and (7) of the Act)]         5
    INVESTIGATIONS                                                                            6
    LEGISLATIVE AND REGULATORY REVIEWS                                                        6

AUDIT REPORTS OVER SIX MONTHS OLD                                                             9

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)] .... 9

       CORRECTIVE ACTION COMPLETED                                                            9
       MANAGEMENT DECISION NOT MADE [including a summary of each audit
       report issued before the commencement of the reporting period for which no
       management decision has been made by the end of the reporting period (including
       the date and title of each such report), an explanation of the reasons such a
       management decision has not been made, and statement concerning the desired
       timetable for achieving a management decision on each such report (Mandated by
       Section 5(a)(10) of the Act»)                                                     10

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                          10

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                     10

REVISED MANAGEMENT DECISIONS [including description·and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) of the Act»)                         10

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act»)                             10

CURRENT AUDITS                                                                           10

GAO LIAISON                                                                              14

STRATEGIC PLAN                                                                           15

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                           20

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                            21

TABLE 2 - REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)     22




                                             11
                   INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(1)                                     1

Section 5(a)(2)                                     1

Section 5(a)(3)                                ·   9

Section 5(a)(4)                                    10

Section 5(a)(5)                                    10

Section 5(a)(6)                                     5

Section 5(a)(7)                                     5

Section 5(a)(8)                                    21

Section 5(a)(9)                                    22

Section 5(a)(10)                                   10

Section 5(a)(11)                                   10

Section 5(a)(12)                                   10




                              111
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency
and effectiveness in the administration and operation of the Commission and to protect against
fraud, waste, and abuse. This reporting period's OIG audit activities which are listed below
reflect these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 10.)

       Review of Enforcement Information Requirements. The objectives of this review are to
       determine what the information needs of all levels in the Division of Enforcement are,
       whether the information needs are being met, and if the required information can be
       created, stored, and retrieved in a more effective and efficient manner. (For additional
       details, see page 11.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare
       annual plans setting performance goals, and report annually on actual performance
       compared to goals. The fust report was prepared in March 2000. The objective of this
       review is to determine how effectively the Commission is complying with GPRA's
       terms. This will include an examination of the performance measures devised by the
       Commission and the systems used for gathering the data to report on those performance
       measures. (For additional details, see page 13.)

       Review of CFrC's Civil Monetary Penalties Collection Program. The Debt Collection
       Act of 1982 and the Debt Collection Improvement Act of 1996 (DCIA) direct Federal
       agencies to collect debts owed to the United States. The objective of this review is to
       verify total outstanding debts owed to the Commission, examine the Commission's
       procedures for collecting outstanding debts, determine Commission's compliance with
       the DCIA and recommend improvements, if necessary, to the debt collection process.
       (For additional details, see page 13.)



                                                1
Completed Audits

       Audit of CFTC's Lease of Space - Washington, D.C. The objective of this audit was
       to determine if the Commission is complying with the requirements of the lease of
       space for its office in Washington, D.C. The particular focus was on the
       appropriateness of all base rental and escalation payments made under the lease. The
       audit covered lease payments from the inception of the lease to July 31, 2000. (For
       additional details, see page 5.)

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General
may receive and investigate complaints or information from the Commission's employees
concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial
and specific danger to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened one investigation during the reporting period and completed one investigation. No
investigations remained open at the end of the period. (See the section on investigations
beginning on page 6.)

LEGISLATIVE AND REGULATORY REVIEWS
        The OIG reviews proposed and final CFTC regulations and legislation and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study
or data analysis a clear link between the proposed solution and the identified problem(s); (3)
has specified clearly the means to effectively and efficiently enforce the proposal; (4) has
"assessed the likely efficiency and effectiveness of alternative solutions; (5) can reasonably
document that the proposal will yield positive net benefits over the long term; and (6) has met
the requirements of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives. (For more detailed descriptions of these
reviews, see the section on legislative and regulatory reviews beginning on page 6.)
                                                                                                  ",




                                                2
   Regulations reviewed during this period include:

   •   Proposed Consumer Advisory about Internet Websites' Promotion of Trac;ling Systems;

   •   Relevant Considerations for Default Judgements; and

   •   Proposed New Regu'ations for the Futures Industry.

Legislative Activities

       The Inspector General has been heavily involved in legislative activities as a member of
the IG's Legislation Committee. The 20th anniversary of the IG Act occasioned many
Congressional bills such as ones enhancing independence. Congressional staff and, in some
instances, members were briefed about the various proposals.


                             OIG RESPONSIBILITIES


        The Office of the Inspector General in the Commodity Futures Trading Commission
was created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended
by the Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG was established
to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and to detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation and regulations and make
           recommendations concerning their impact on the economy and efficiency of CFrC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.


       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.


                                               3
                                      OIG RESOURCES


        The OIG consists of the Inspector General, two professional staff members, and a
secretary. All positions have been filled since January 2, 2000. The present Inspector General
                                                                                                  .-
assumed his position on October 7, 1990.

       The OIG, on December 4, 1989, signed a Memorandum of Understanding with the
Office of General Counsel (OGC). This Memorandum details the procedures that will be used
to provide the OIG with OGC legal services. An aGC staff member has been assigned to
provide such services to the OIG on an as-needed basis.


                  CFTC PROGRAMS AND OPERATIONS


        The CFTC was established in 1974 as an independent agency to regulate commodity
futures and options trading in the United States. The CFTC is headquartered in Washington,
D.C., with additional offices in Chicago, New York, Kansas City, Los Angeles, and
Minneapolis.

     . The basic objectives of the CFTC are to prevent manipulation of the marlcets, abusive
trade practices, and fraudulent activities; to maintain effective oversight of the markets and
self-regulatory organizations; and to enforce the Commodity Exchange Act and Commission
rules without hindering the futures markets' provision of price discovery and risk shifting
services. The CFTC regulates the futures activities of brokerage firms, salespersons, floor
brokers, floor traders, commodity pool operators, commodity trading advisors, introducing
brokers, and leverage transaction merchants. In addition, the agency ensures the effective
enforcement of exchange rules, reviews the terms and conditions of proposed futures contracts
and the registration of firms and individuals that provide advice or handle customer funds, and
oversees the activities of the National Futures Association.




                                               4
                                 COMPLETED WORK


AUDITS

        The OIG is required to conduct, supervise and coordinate audits of CFTC programs
and operations and to·ensure that the audits are conducted in accordance with generally
accepted government auditing standards. The OIG is also required to recommend changes to
existing and proposed CFTC programs and operations to promote economy, efficiency, and
effectiveness and to prevent and detect fraud and abuse.

       The purpose of these audits is to ensure that:

       •     Funds have been expended in a manner consistent with related laws, regulations,
             and policies;

       •     Resources have been managed effectively and efficiently;

       •     Stipulated program objectives hav~ been achieved; and

       •     Resources have been safeguarded.

       The following report was issued during the reporting period:

1. Audit of CFTC's Lease of Space - Washington, D.C.

Objective.

        The objective of this audit was to determine if the Commission is complying with the
requirements of the lease of space for its headquarters office in Washington, D.C. The
particular focus was on the appropriateness of all base rental and escalation payments made
under the lease. The audit covered lease payments from the inception of the lease to July 31,
2000.

Results.

        On September 26, 2000, the OIG issued an audit report finding that the system of
internal controls for the procedure for receiving invoices, approving, and paying lease invoices
and documenting each stage ofthe process has been functioning properly since May 1999.
However, we also concluded from the absence of some key records that more attention was
needed to oversee the creation and retention ofrecords.




                                                5
       As a result ofthis audit, the OIG recommended that the Office ofFinancial Management
(OFM) consistently follow its established internal control procedures for receiving, approving,
and paying lease invoices. We also recommended that OFM make a concerted effort to find the
missing records identified in this audit or to reconstruct those records in cooperation with the
landlord. OFM lias informed the OIG that more attention will be given to the identified
recordkeeping problems.

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General
may received and investigate complaints or information from the Commission's employees
concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial
and specific danger to the public health and safety.

        There were no investigations pending as of the beginning of the reporting period. The
OIG opened one investigation during the reporting period and closed one investigation. No
investigations remained open at the end of the period.

        On May 16, 2000, the OIG reported to the Chairman on a recently completed review of
the legal advice given to a senior level employee on the requirements under the ethics rules for
recusal from matters in which he had an interest, for divestiture of prohibited holdings, and of
his compliance with that advice. Although the OIG found that the official immediately
complied in good faith with the legal advice he received, his experience pointed to the absence
of a comprehensive system to insure the proper execution of the CFTC Ethics program. The
Office of General Counsel indicated that it was in the process of redefining the administration
of the ethics program to insure that, in the future, employees are promptly and correctly
informed of their ethical obligations, that records of advice given are created and maintained in
a manner which permits secure storage and easy retrieval, and that responsibility for carrying
out the program is fixed on identified individuals. The OIG concurred that such an effort is
needed.

LEGISLATIVE AND REGULATORY REVIEWS
        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews exchange rule proposals and
changes.

        The OIG has notified the responsible Division as to any concerns with draft and final
documents for the legislation, rules or investigations listed below. Formal comments were not
filed with the Commission. A summary of the principal legislation, regulations and
investigations reviewed and the OIG review results follows.


                                                6
     RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

     1. Petition for exemption from Dual Trading Ban of the Chicago Mercantile Exchange
        (CME).

     Summary of Action

'.
            The CME sought exemption for several of its contracts from the dual trading
     prohibitions.

     OIGReview

            The OIG asked various questions which staff responded to and clarified. Draft orders
     have been prepared by Trading and Markets staff.

     2. Petition for exemption from Dual Trading Ban of the Chicago Board of Trade (CBT).

     Summary of Action

            The CBT sought exemption for several of its contracts from the dual trading
     prohibitions.

     OIG Review

            The OIG queried staff about various issues to which staff responded. Draft orders have
     been prepared by Trading and Markets staff.

     3. Proposed Rules Regarding Direct Foreign Order Transmittals by U.8. Persons
        (proposed Rule 30.12).

     Summary of Action

            Staff of the CFI'C proposed a rule that would allow certain foreign futures and options
     brokers to receive directly foreign futures and options orders from sophisticated U.S.
     customers.

     OIG Review

            The OIG raised questions and offered suggestions. Staff provided clarifying answers
     and adopted several suggestions. Final rules were published in the Federal RegiSter on August
     2, 2000 (65FR47275).




                                                    7
4. Proposed Amendments regarding Performance Data and Disclosure for Commodity
   Trading Advisers (CTA).

Summary of Action

       Staff proposed amendments that would require rate of return performance measures
used by a eTA to be computed by dividing net performance by the nominal account size.
Previously the CFTC had required that actual deposited funds be used in the denominator.

DIG Review

       The DIG urged staff to consider using a focus group to determine the relative values of
disclosure of the two methods. Trading and Markets staff is currently reviewing public
comments.

s.   Proposed Amendment to CFTC Rule 1.41.

Summary of Action

       CFTC staff proposed an amendment to Rule 1.41 permitting contract markets to place
new rules and rule amendments into effect on the business day following their receipt by the
CFTC subject to certain conditions.

DIG Review

        DIG supported the staff action and recommended approval to the Commission.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

1. Proposed Consumer Advisory about Internet Websites' Promotion of Trading
   Systems.

Summary of Action

       The Division of Enforcement recommended that the Commission issue a consumer
advisory urging the public to use caution when evaluating performance claims made by
promoters of trading systems and advisory services.

DIG Review

        DIG reviewed the advisory and raised certain questions which were resolved.




                                               8
2. Relevant Considerations for Default Judgements.

Summary of Action

      A question has been raised about the appropriate circumstances for the entry of default
judgements.

OIGReview

      OIG is currently conducting legal research to determine the criteria relevant to a default
judgement.

3. Proposed New Regulations for the Futures Industry.

Summary of Action

        CFTC staff has proposed new regulations that increase legal certainty for derivative
transactions and provide alternative regulatory systems depending on the commodity traded and
the nature of the participant.

OIG Review

       OIG has reviewed the proposals which represent progress over the existing system.

Legislative Activities

       The IG continues to be involved in legislative activities as a member of the IGts
Legislative Committee. Attention has been given to various issues such as IG independence
with several contacts with Congressional staff.


              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED

       There were no instances of audit reports over six months old where corrective action
had not been completed.

CORRECTIVEACTIONCOMPLE~D

       There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.


                                               9
MANAGEMENT DECISION NOT MADE

       There were no instances of reports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.


                   SUMMARY OF MATTERS REFERRED TO
                      PROSECUTIVE AUTHORITIES

           No matters were referred to prosecutive authorities during the reporting period


                   SUMMARY OF EACH REPORT MADE TO
                         THE AGENCY HEAD

        No reports were made to the agency head under section 6 (b)(2) concerning information
or assistance unreasonably refused or not provided.


                      REVISED MANAGEMENT DECISIONS

       No management decisions were revised during the reporting period.


                   INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.


                                     CURRENT AUDITS

           The audit agenda and priorities for the OIG are determined based on the following
factors:



                                                  10
               •   Statutory and regulatory requirements;

               •   Adequacy of internal control systems as indicated by vulnerability assessments and
                   internal control reviews recommended by OMB Circular A-123;

               •   Changes in the program conditions or particular vulnerability of the organization,
                   program, activity, or function to problems or deficiencies;
'-
               •   Current and potential dollar magnitude and likely benefits of a review on the
                   efficiency or effectiveness of CFTC programs and operations;

               •   Management priorities and improvements that may be possible;

               •   Results of audits of CFTC programs and operations by other Federal agencies; and

               •   Availability of audit resources and the potential opportunity costs to the agency.

            The audit agenda and summary of progress for each audit which has not yet been
     completed is summarized below. New agenda items periodically will be added, as appropriate,
     along with a description of the audit objective for each.

     1.        Review of Enforcement Information Requirements

     Objectives.

             The mission of the Division of Enforcement is to investigate and prosecute fairly and
     effectively violations of the Commodity Exchange Act and the Commission's regulations in
     order to safeguard the integrity of U.S. futures and options markets and to protect market
     participants and futures and options customers. In the course of its activities, the division,
     with headquarters and regional components, plans and follows an often complex course to
     achieve its objectives and receives and creates a huge volume of documents which must be
     logically stored and regularly accessed. To support the accomplishment of these tasks, the
     division is relying on a collection of very old manual and automated systems to track the
     progress of activities and to store and retrieve documents. The objectives of this review are to
     determine what the information needs of all levels in the division are, whether the information
     needs are being met, and if the required information can be created, stored, and retrieved in a
     more effective and efficient manner.

     Status.

             The joint OIG/Enforcement team produced extensive and detailed narrative flow charts
     of the current operational and administrative functions and processes of the Division of
     Enforcement and delivered them to the Division of Enforcement and the Office of Information
     Resources Management (OIRM). These products were designed to inform the analysts in


                                                       11
OIRM of the inner workings of the Division of Enforcement and to serve as the base on which
the information requirements of the Division of Enforcement will be defined.

        In September 1997, in a joint meeting of representatives of the Division of
Enforcement, the OIG, and OIRM, the principals made commitments of six staff years of
effort from OIRM and approximately three staff years of effort from Enforcement to define the
system requirements of Enforcement.

        The Division of Enforcement and OIRM agreed that the first priority was the
development of a system to track documents in the Division in accordance with the Division's
Enforcement Procedure Number 3. The second phase was devoted to installing a system to
track production within the Division and to report that information in the required formats to
management of the Division. Phase three will concentrate on moving the functions of the
attorneys and investigators from paper to computer screen and using the resulting information
to improve the tracking of productivity information and the sharing of information within the
Division.

        The final version of the frrst phase of what is now being called "the Enforcement
Modernization Project" was delivered to the Division of Enforcement in May 1998. This
Enforcement Procedure Number 3 System is now being used at all locations of the Division.
The second phase, a system which produces the monthly status reports from all parts of the
Division and maintains on screen data on the current status of all matters within the Division,
has been completed. Training in the use of this system was completed during March 1999.
Refinements to the monthly status report system are expected to be completed before the end of
the calendar year.

         Phase Three, designed to present the Enforcement Division with a case management,
litigation support, and doc:ument management system, to tie together the frrst two systems with
this new system, and to automate as many of the remaining Enforcement Division processes as
possible, began with a survey of appropriate off-the-shelf systems and an investigation of
currently available software and hardware which may meet the bulk of identified needs.
Difficulties in maintaining contractor resource levels led to delays in the pursuit of Phase 3. A
team consisting of staff from the Division of Enforcement, OIRM, and contractor personnel
has been engaged in a review of available off-the-shelf case management, litigation support,
and document management software since the beginning of Calendar Year 2000.

   As a result of this review of available off-the-shelf software, the Division of Enforcement
and OIRM developed a list of requirements. A Request for Proposals reflecting those
requirements was issued on July 19, 2000. Responses were due by August 9, 2000. The
Technical Evaluation Committee is currently in the process of reviewing the proposals.




                                                12
     2. Review of Agency Compliance with GPRA

     Objective.

             The Government Performance and Results Act of 1993 requires federal agencies to
     develop strategic plans, prepare annual plans setting performance goals, and rep~rt annually on
     actual performance compared to goals. The first report was prepared in March 2000. The
     objective of this review is to determine how effectively the Commission is complying with
'-   GPRA's terms. This will include an examination of the performance measures devised by the
     Commission and the systems used for gathering the data to report on those performance
     measures.

     Status.

             In response to Congressional interest, the OIG consulted with and advised the
     Commission's operating divisions concerning the GPRA requirements. The OIG reviewed the
     Commission's FY 2001 Annual Performance Plan before its submission to Congress. In
     conjunction with other federal agencies' Inspectors General, the OIG is participating in the
     development of "best practices" for adhering to requirements of GPRA. Presently, the
     Commission is undergoing a thorough reexamination of its regulatory mission. The OIG is
     participating in the evaluation of comments received by interested parties as well as examining
     how best to modify the Commission's GPRA related goals and measures under the new
     regulatory paradigm.

     3. Review of CFTC's Civil Monetary Penalties Collection Program

     Objective.

            The Debt Collection Act of 1982 and the Debt Collection Improvement Act of 1996
     (DCIA) direct Federal agencies to collect debts owed to the United States. During Fiscal Year
     1999, twenty-eight civil monetary penalties (totaling $37,633,977) assessed by the Commission
     in administrative proceedings became due. Eight civil monetary penalties (totaling
     $49,806,186) assessed by court orders in injunctive proceedings also became due.

             The U.S. Department of the Treasury requires a quarterly report which includes
     information about penalties assessed by the Commission and federal courts as well as other
     non-penalty debt owed to the Commission. The objectives of this review are to verify the
     accuracy of the accounting for civil monetary penalties, examine the Commission's procedures
     for collecting outstanding debts, determine Commission's compliance with the DCIA, and
     recommend improvements, if necessary, to the debt collection process.

     Status.

            The OIG has begun reviewing the Civil Monetary Penalties Collection program and
     developing its audit program. Program documents have been gathered and initial interviews of

                                                   13
knowledgeable personnel have been conducted. This audit is expected to be completed before
the close of the next reporting period.


                                     GAO LIAISON


        The OIG is charged with providing policy direction for, and conducting, supervising,
and coordinating audits and investigations relating to CFTC programs and operations. In
addition, the OIG is required to recommend policies for, and conduct, supervise, and
coordinate with other Federal agencies, state and local Governmental agencies, and
nongovernmental entities, audits, investigations, and evaluations regarding the economy,
efficiency, and effectiveness of CFTC programs and operations.

        GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each
audit and the methods of reaching the goals so as to minimize the requirements placed on
CFTC resources.




                                               14
                          STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

      The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (P.L.
95-452), as amended by the Inspector General Act Amendments of 1988 (P.L. 100-504). The
OIG was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and to detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation and regulations and to make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against
fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine if the change is


                                                15
in the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.

        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of General Counsel where proposed Commission
opinions are drafted; and appeals are decided by the Commission with the paperwork being
handled by the Office of the Secretariat. Each office involved in the process had a separate
tracking system without ties to the tracking systems in the offices preceding them or following
them in the process. Each office treated the case as if it were brand new to the Commission
when they received it. As a result, there was no provision for tracking information across
organizational lines. If the Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that
information was unavailable without an extensive expenditure of manual labor. .

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with
particular projects. What a program manager may have great difficulty doing, however, is
telling a decision maker that for a specific level or increase in resources, the program manager
will deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
juqgements.. Decision makers are forced to rely on intuition and anecdotal evidence.

        To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG will, in addition to the conduct of mandatory audits, concentrate its
audit resources on th~ identification of information voids and the lack of continuity in the flow
of information across organizational lines from the beginning of a process until its conclusion.
The OIG will recommend the implementation of any system improvements where the benefits
of implementing the change exceed the costs.

       In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to
monitoring agency performance to insure that the data is accurately gathered and that the
measures reported are the best available for demonstrating program performance.


                                                16
INVESTIGATION

        The Inspector General Act of 1978, as amended, provides that the Inspector General
may receive and investigate complaints or information from the Commission's employees
concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, gross waste of funds, abuse of authority or a substantial and
specific danger to the public health and safety.

       The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program
has resulted in only a handful of investigations per year. This strategy was followed because
the OIG believed that an independent regulatory agency such as CFTC without grant money or
substantial contracts to award was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG, a 24 hour hotline was·
established in February 1993 to receive complaints. The hotline's existence is publicized on
the back cover of the agency-wide telephone book and in this semiannual report.

       Because of the reactive nature of the OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations and legislation and selected exchange rules using
five basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the
means to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency
and effectiveness of alternative solutions; (5) can reasonably document that the proposal will
yield positive net benefits over the long term; and (6) has met the requirements of the
Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                               17
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the
Chairperson, the Commissioners, and program managers have timely, useful information on
the progress of CFTC's programs in meeting their goals and objectives. For example,
emphasis will be placed on determining whether all managerial levels engaged in a process can
track the progress of their various programs. The tracking systems required in many, though
not all, programs will cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by an organization to gather information on its use of resources, the results of the
devotion of those resources (including defmitions of measurements of accomplishment), and
the reporting of results and associated costs to the upper level managers in the Division and to
the Chairman and the Commissioners. Cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish
the priorities of the Commission. If any elements are lacking in the information systems, they
will be identified and improvements will be recommended if they can be implemented in a
costlbeneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffmg.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.




                                                18
RESOURCES REQUIRED

       The OIG estimates that approximately one and nine-tenths staff years of effort will be
devoted over each of the next five years to the audits described in "Other Audits" above. The
"Annual Audits" are expected to consume approximately one-tenth staff year per year.




                                              19
                     CONTACTmG THE OFFICE OF THE
                               INSPECTOR GENERAL


       The OIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The
telephone number is (202)418-5110. The facsimile number is (202)418-5522. The hotline
number is (202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM,        j


Monday through Friday, except Federal holidays.




                                            20
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (Aprill, 2000 - September 30, 2000)




                                                                       Dollar Value
                                                          Number        (Thousands)
                                                                   Questioned Unsupported·

A. For which no management decision
   has been made by the commencement
   of the reporting period                                   0           0              0

B. Which were issued during the
   reporting period                                          0           0              0

   Subtotals (A + B)                                         0           0           0

C. For which a management decision
   was made during the reporting
   period                                                    0           0              0

   ( i)   dollar value of
          disallowed costs                                   0           0

   (ii)   dollar value of
          costs not disallowed                               0           0

D. For which no management decision
   has been made by the end of the
   reporting period                                          0           0          0




                                              21
                                          Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (April 1, 2000 - September 30,2000)




                                                                    Dollar Value
                                                       Number       (Thousands)


A. For which no management decision
   has been made by the commencement
   of the reporting period                               0             0

B. Which were issued during the
   reporting period                                      0             0

   Subtotals (A   + B)                                   0            0

C. For which a management decision
   was made during the reporting
   period                                                0            0

   (i)    dollar value of
          recommendations that
          were agreed to by management                   0             0

   (ii)   dollar value of
          recommendations that
          were not agreed to by
          management                                    0              0

D. For which no management decision
   has been made by the end of the
   reporting period                                      0             0




                                           22
        The InspectorGeneral
        needsyour helpto
        assure the integrity of
        CFTC's programs.

                                        ,
Report FRAUD, WASTE
 or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-551 0
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581
